INCURRED-COST CONTRACT AUDIT:
Contract Modification Charges for Extended Indirect Overhead
Costs Not Supported




                     Audit Report No. OIG-A-2012-006 | February 17, 2012




                            DRAFT
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                         Office of Inspector General

Memorandum
To:           Jeff Martin
              Chief Logistics Officer

From:         David R. Warren
              Assistant Inspector General, Audits

Date:         February 17, 2012

Subject:      Incurred-Cost Contract Audit: Contract Modification Charges for Extended
              Indirect Overhead Costs Not Supported
              (Audit Report No. OIG-A-2012-006)


This is our report entitled Incurred-Cost Contract Audit: Contract Modification Charges for
Extended Indirect Overhead Costs Not Supported (Audit Report No. OIG-A-2012-006). The
objective of this audit was to determine if the contractor had adequate documentation
to support the extended indirect overhead costs included in contract modification 24
(extended overhead modification). The contract modification was to cover additional
costs associated with revisions to the scope of work in the original contract necessary to
complete the overall project. Amtrak requested, and we agreed, to perform this audit to
ensure that Granite Construction Northeast, Inc. (the contractor) had adequate
documentation to support its claimed costs. Details of our scope and methodology are
described in Appendix I.




BACKGROUND
In December 2002, Amtrak entered into contract C-082-83501 with the contractor for a
firm-fixed amount totaling $66,340,000. As of December 31, 2011, contract modifications
had increased the contract value to $84,548,927. The contract’s purpose was to
reconstruct and upgrade the ventilation shaft facilities servicing the four East River
tunnels in Long Island City, New York. This upgrade required a design change to the
original scope of work that extended the critical path of the project. Since the design
                                                                                                           2

                            Amtrak Office of Inspector General
    Incurred-Cost Contract Audit: Contract Modification Charges for Extended Indirect
                            Overhead Costs Not Supported
                   Audit Report No. OIG-A-2012-006, February 17, 2012

change altered the original scope of work, the contractor submitted contract
modification 6 for the additional work specified in the design change. The contractor
later submitted contract modification 11 to increase the contract period of performance
by 312 calendar days due to the additional scope of work included in the design change.
The increase to the period of performance precipitated an extended overhead
modification, the subject of this audit, which allowed the contractor to charge for
extended indirect overhead costs not to exceed $2,027,446. On November 19, 2008,
Amtrak signed the extended overhead modification to contract C-082-83501.1



EXTENDED OVERHEAD CLAIM WAS NOT SUPPORTED

Our analysis of the documentation supporting the extended overhead claim showed
that the claim was not adequately supported. The extended overhead modification
allowed charges to be billed for extended indirect overhead costs resulting from the
increase in the contract’s period of performance. However, the contractor claimed direct
costs, general and administrative costs, and profit, instead of submitting extended
indirect overhead costs. Therefore, we concluded that the contractor’s claimed costs
were not allowable under the terms of the contract modification. As a result, Amtrak
paid the contractor $2,027,446 for charges that were not adequately supported.


We held discussions with the contractor’s representatives and Amtrak contracting
officials. From these talks—and the fact that the construction work was completed—we
recognize that the contractor likely incurred some unidentified overhead costs
associated with the extension to the period of performance. This is despite the fact that
the contractor’s claim was not adequately supported. We had no basis, however, for
calculating an allowable amount absent documented overhead charges.




1 Contract C-082-83501 and contract modification 24 include, by reference, General Provisions for
Construction Contracts that states in Section 56, Audit and Inspection of Records, “Amtrak reserves the
right to inspect, copy and audit the records of Contractor and subcontractor(s) (“Contractor’s Records”)
in connection with all matters related to the Contract.”
                                                                                          3

                              Amtrak Office of Inspector General
      Incurred-Cost Contract Audit: Contract Modification Charges for Extended Indirect
                              Overhead Costs Not Supported
                     Audit Report No. OIG-A-2012-006, February 17, 2012

RECOMMENDATIONS


We recommend that Amtrak’s Chief Logistics Officer
      1. work with the contractor to establish an appropriate claim amount for the
         extended indirect overhead that is supportable and verifiable; and
      2. based on the results of that review, recover any unsupported portion of the
         $2,027,446 paid to the contractor under the extended overhead contract
         modification.




MANAGEMENT COMMENTS AND OIG RESPONSE
In commenting on a draft of this report, Amtrak’s Chief Logistics Officer agreed with
our finding and recommendations. The planned action and milestone for completion
identified by Amtrak are responsive to our recommendations. Amtrak’s letter in
response to the draft is reprinted as Appendix II.

Thank you for your cooperation during the course of this audit. If you have any
questions, please contact me (david.warren@amtrakoig.gov, 202.906.4742) or Matthew
Simber, Senior Director (matt.simber@amtrakoig.gov, 215.349.1077).


cc:      Gordon Hutchinson, Acting Chief Financial Officer
         Diane Herndon, Managing Deputy General Counsel
         William Herrmann, Managing Deputy General Counsel
         Bernard Reynolds, Deputy Chief Logistics Officer
         Mark Wurpel, Deputy Chief Engineer, Construction
         Gary Eckenrode, Senior Director, Procurement
         Eve Nacinovich, Assistant Controller, Revenue Accounting
         Jessica Scritchfield, Senior Director, Internal Controls/Audit
         Clavel Crump, Program Director, Fire & Life Safety
                                                                                         4

                           Amtrak Office of Inspector General
   Incurred-Cost Contract Audit: Contract Modification Charges for Extended Indirect
                           Overhead Costs Not Supported
                  Audit Report No. OIG-A-2012-006, February 17, 2012


                                       Appendix I

                       SCOPE AND METHODOLOGY
This report provides the results of an Amtrak Office of Inspector General (OIG) review
of costs claimed under contract C-082-83501, modification 24. This report addresses
whether Granite Construction Northeast, Inc., had adequate documentation to support
the $2,027,446 overhead claim included in the contract modification. We performed
audit work starting in April 2009 and completed it in December 2011. Our work was
delayed for a period of time due to several unsuccessful attempts by our office to obtain
supporting documentation for claimed costs from the contractor.

To determine if the contractor had adequate documentation to support the extended
overhead claimed in the contract modification, we reviewed accounting data and
financial information, including the contractor’s prepared schedule entitled Calculation
of Time-Related Project Overhead Costs and Daily Rate. We interviewed the contractor’s
staff at its corporate offices in Tarrytown, New York, and a field location in Long Island
City, New York. We also reviewed Amtrak’s General Provisions for Construction
Contracts and Supplementary General Provisions for Construction Contracts,
Procurement and Materials Management Department’s files and applicable policies and
procedures, as well as portions of the Federal Acquisition Regulation. Finally, we
interviewed Amtrak personnel to obtain an understanding of the contract and project
requirements.

Our work was performed in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.



Internal Controls

In conducting the audit, we assessed certain internal controls pertinent to our audit
objective with respect to Granite Construction Northeast, Inc.’s, policies and
                                                                                          5

                           Amtrak Office of Inspector General
   Incurred-Cost Contract Audit: Contract Modification Charges for Extended Indirect
                           Overhead Costs Not Supported
                  Audit Report No. OIG-A-2012-006, February 17, 2012

procedures. This assessment was performed in concert with work we performed as
recorded in Audit Report OIG-A-2012-002. Specifically, we identified and assessed
management controls for preventing multiple claims for the same costs and developing
requests for equitable adjustment.



Computer-Processed Data

We relied upon computer-processed information from the contractor’s accounting
system, but did not review the overall system’s data reliability. We relied on the results
of our tests performed as recorded in Audit Report OIG-A-2012-002, in which we tested
1,102 transactions and identified no exceptions. We concluded that the test results for
the transactions in question provided sufficient assurance that we could rely on the
computer-processed information to accomplish our audit objective.



Prior Audit Reports

We reviewed the following prior audit reports for potential relevance to our work:

Incurred-Cost Contract Audit: Bridge Construction Modification Settlement Agreement Cost is
Adequately Supported, Audit Report OIG-A-2012-002, November 7, 2011.

New York Tunnel Inspection Trains, OIG Audit Report 211-2003, February 20, 2004.
                                                                                     6

                         Amtrak Office of Inspector General
 Incurred-Cost Contract Audit: Contract Modification Charges for Extended Indirect
                         Overhead Costs Not Supported
                Audit Report No. OIG-A-2012-006, February 17, 2012


                                   Appendix II

COMMENTS FROM AMTRAK’S CHIEF LOGISTICS OFFICER
                                                                                       7

                           Amtrak Office of Inspector General
   Incurred-Cost Contract Audit: Contract Modification Charges for Extended Indirect
                           Overhead Costs Not Supported
                  Audit Report No. OIG-A-2012-006, February 17, 2012


                                     Appendix III

                           OIG TEAM MEMBERS


David R. Warren, Assistant Inspector General, Audits

Matthew Simber, Senior Director, Eastern Region

Cheryl Chambers, Audit Manager

Thelca Constantin, Senior Auditor

Mark Scheffler, Senior Auditor

Dorian Herring, Senior Auditor

Michael P. Fruitman, Principal Communications Officer
                                                                                       8

                          Amtrak Office of Inspector General
  Incurred-Cost Contract Audit: Contract Modification Charges for Extended Indirect
                          Overhead Costs Not Supported
                 Audit Report No. OIG-A-2012-006, February 17, 2012

          OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission          The Amtrak OIG’s mission is to

                                 conduct and supervise independent and objective audits,
                                  inspections, evaluations, and investigations relating to
                                  agency programs and operations;

                                 promote economy, effectiveness, and efficiency within
                                  Amtrak;

                                 prevent and detect fraud, waste, and abuse in Amtrak’s
                                  programs and operations;

                                 review security and safety policies and programs; and

                                 review and make recommendations regarding existing
                                  and proposed legislation and regulations relating to
                                  Amtrak's programs and operations.

Obtaining Copies of OIG       Available at our website: www.amtrakoig.gov
Reports and Testimony
To Report Fraud, Waste,       Report suspicious or illegal activities to the OIG Hotline
or Abuse                      (you can remain anonymous):

                              Web:      www.amtrakoig.gov/hotline
                              Phone:    800-468-5469

Congressional and             E. Bret Coulson, Senior Director
Public Affairs                Congressional and Public Affairs
                              Mail:    Amtrak OIG
                                       10 G Street, N.E., 3W-300
                                       Washington, D.C. 20002
                              Phone: 202-906-4134
                              Email: bret.coulson@amtrakoig.gov
